March 31, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

VINCENT DEVITO
VICE PRESIDENT, CONTROLLER

DEBORAH J. JUDY
DIRECTOR, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2009 Information Systems General
         Computer Controls Capping Report (Report Number IS-AR-10-005)

This report summarizes the results of our audit of information systems general
controls at the                                                   Information
Technology and Accounting Service Centers (IT/ASC) and the
Information Technology Service Center (ITSC) for fiscal year (FY) 2009 (Project
Number 09RD001IS000). The objectives of the audit were to determine whether
general controls for selected applications, data, and computer infrastructure at
the IT centers provided reasonable assurance that computer-processed data
were complete, validated for accuracy, and secure; and business practices
complied with U.S. Postal Service policies, procedures, and standards. We
performed this self-initiated audit as part of the FY 2009 financial statements
audit. See Appendix A for additional information about this audit.

Conclusion

General computer controls for selected applications, data, and the computer
infrastructure at the information data centers provided reasonable assurance that
computer-processed data were complete, validated for accuracy, and secure.
However, we identified Information Technology (IT) control issues that do not,
alone or collectively, represent a significant risk to reliance on general computer
controls. We issued five interim audit reports during our FY 2009 audit to assist
management in improving information technology operations. See Appendix B for
summaries of the audit reports we issued. This report does not contain
recommendations; however, four of the interim audit reports provided
recommendations to address issues identified during our audit.
Fiscal Year 2009 Information Systems                                         IS-AR-10-005
 General Computer Controls Capping Report



The issues were in the areas of:

       Physical security related to semiannual building key surveys and reviews
        of identification (ID) badge access control lists.

       UNIX access controls related to
                                    .

       Network access controls related



       Windows® access controls related to
                                     not in compliance with the Windows
        security standards.

While conducting the audit, we identified several additional issues that required
management’s attention. Management took action to correct each of the issues
during the audit; therefore, we did not make recommendations to address them.

       Repairing a            facility door that separates processing and
        distribution center personnel from the IT/ASC.

       Resolving UNIX issues to:

               Disable
               Add a missing account and missing group.
               Remove privileged files from a shared directory.
               Remove an unlocked unnecessary account.
               Restrict           to the system console.
               Disable                       .
               Restrict access to                                      .
               Limit access to
                                                          1
               Set appropriate security mode on                 .
               Correct a primary group ID shared by multiple accounts.

       Modifying Oracle® issues for appropriate application and user profile
        settings.




1




                                            2
Fiscal Year 2009 Information Systems                                                 IS-AR-10-005
 General Computer Controls Capping Report


We summarized the status of FY 2009 and previous years’ recommendations in
Appendix C.2 See Table 1 in Appendix C for a list of open recommendations and
Table 2 for a list of recommendations that were closed.

This report does not contain any findings or recommendations. Management
concurred with the facts presented in the report. See Appendix D for
management’s comments, in their entirety.

We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Frances E. Cain,
director, Information Technology, or me at 703-248-2100.

      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Charles L. McGann
    Joseph J. Gabris
    Gregory D. Larrabee
    Sally K. Haring




2
    The recommendations in Appendix C refer to audits of IS general controls only.


                                                       3
Fiscal Year 2009 Information Systems                                                             IS-AR-10-005
 General Computer Controls Capping Report


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

                                        IT/ASCs provide computer processing and
accounting services for the Postal Service.               ITSC provides
infrastructure services3 for over 38,000 Postal Service locations. Each site
includes multiple service organizations.

                                     IT/ASCs house three parallel service areas:

     Host Computing Services (HCS)
     Integrated Business Systems Solutions Center (IBSSC)
     Accounting Service Center

                  IT/ASC has a similar structure but without a HCS area.

HCS deploys, operates, and supports systems and applications for all business
units within the Postal Service. The IBSSCs perform application development,
enhancement, and maintenance of systems that enable the Postal Service to
achieve its business objectives. The ASCs are responsible for a variety of
accounting and finance activities. These activities include accounts payable,
banking, and reconciliation issues; domestic and international claims; money
orders; daily financial reporting; and payroll and benefits adjustments. All IT-
related service centers report to the executive vice president, chief information
officer. The ASCs report to the vice president, controller.

To facilitate the delivery of mail worldwide, the IT organization:

        Maintains the Postal Service’s computing infrastructure.
        Manages the corporate-wide intranet.
        Runs the systems that connect processing centers and 38,000 post offices
         nationwide.
        Controls the technology supporting 650 applications for day-to-day Postal
         Service business, including payroll for approximately 700,000 career
         employees.
        Determines the strategic direction for the agency’s information technology.
        Employs over 1,000 IT employees across the continental U.S.




3
 Infrastructure services are IT functions that support the overall Postal Service enterprise and include such
areas as telecommunications, distributed computing, and IT help desk.


                                                      4
Fiscal Year 2009 Information Systems                                                        IS-AR-10-005
 General Computer Controls Capping Report



OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether general controls for
selected applications, data, and computer infrastructure at the IT centers
provided reasonable assurance that computer-processed data were complete,
validated for accuracy, and secure; and business practices complied with Postal
Service policies, procedures, and standards.

The scope of our audit at the                               IT/ASCs and the
       ITSC included reviews of the following systems and control areas:

     Security management.
     Access controls.
     Configurati on management.
     Segregation of duties.
     Follow-up on prior years’ recommendations.

In addition, we tested the above controls as they relate to the operating systems
and database platforms for the following applications:




To address the audit objectives, we reviewed:

       Password management practices for compliance with Postal Service
        standards and password settings, including expiration intervals and
        password complexity for normal and privileged accounts.

     Mainframe and mid-range4 user access to commands and data to
       determine consistency with policies and procedures.

       Mainframe and mid-range logon IDs to ensure the IDs were properly
        managed and employees had access to appropriate Postal Service data
        and resources.

       System controls by downloading and reviewing the appropriate settings
        and configuration files (in some cases performing live tests to ensure that

4
 In general, mid-range refers to computers that are more powerful and capable than personal computers
but less powerful and capable than mainframe computers.


                                                   5
Fiscal Year 2009 Information Systems                                                        IS-AR-10-005
 General Computer Controls Capping Report


        system controls were effective), interviewing IT personnel, and reviewing
        vendor documentation.

       Documentation that authorizes access to Postal Service systems and data
        to verify adequate protection of Postal Service resources.

       Critical mainframe operating system and system software datasets stored
        on the mainframe and secured by

                                      and security parameters to ensure the
        central security system validates user access.

       Physical security procedures and practices to verify that physical access
        controls were in place to protect Postal Service resources.

       Information system policies and procedures to validate they were
        implemented, updated, and followed.

     System configuration reports and observed back-up tape handling
       procedures to verify management backed up critical production files and
       servers.

       Badge access system and key control procedures at each IT/ASC to
        ensure managers reviewed badge and key access lists and validated and
        documented the processes.

To supplement the general computer controls audit, our Vulnerability
Assessment Team conducted tests of selected servers and databases that
support the                application.6 These tests provided management with an
evaluation of the quality of security for servers where the selected applications
reside.

We interviewed personnel at the various IT/ASCs to obtain relevant information
and to corroborate our analyses. We also collected and analyzed documentation
on policies and procedures at these locations as they pertained to the specific
areas we reviewed. We judgmentally selected applications for review based on
financial significance, sensitivity, elapsed time since the last review, and the
platforms on which they reside. For example, to facilitate our UNIX testing, we
selected finance-related applications residing on UNIX servers.

We used batch and online report tools to extract and display detailed information
from the mainframe, such as user access authorizations, security resource rules
governing access to application data sets, and system parameter settings. We
5
  The software security tool the Postal Service uses to enforce security policies and procedures in a
mainframe environment.
6
  Database and Network Access Controls at the Information Technology and Accounting Service Centers
(Report Number IS-AR-10-001, dated December 14, 2009).


                                                   6
Fiscal Year 2009 Information Systems                                     IS-AR-10-005
 General Computer Controls Capping Report


used manual and automated techniques to analyze computer-processed data.
Based on those tests and assessments, we concluded these data were
sufficiently reliable to meet the audit objectives. We performed all system queries
in a controlled environment with management’s full knowledge and approval.

We conducted this performance audit from October 2008 through March 2010, in
accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We discussed our observations and conclusions
with management officials throughout the audit and again on February 24, 2010,
and included their comments where appropriate. We used data from various
mainframe and distributed systems and financial applications in the course of
conducting our audit. We performed limited testing of this information as part of
our review.




                                            7
       Fiscal Year 2009 Information Systems                                           IS-AR-10-005
        General Computer Controls Capping Report



       PRIOR AUDIT COVERAGE

                          Report            Final Report
   Report Title           Number                Date Report                        Results
Fiscal Year 2008        IS-AR-09-005        March 19, 2009    Overall, general computer controls were in
Information Systems                                           place and working effectively. However,
General Controls                                              additional controls and actions were needed
Capping Report                                                in the areas




                                                                             The report contained no
                                                              recommendations.
Fiscal Year 2007        IS-AR-08-007        March 11. 2008    Overall, general computer controls were in
Information Systems                                           place and working effectively. However,
General Controls                                              additional controls and actions were needed
Capping Report                                                in the areas of



                                                                                           The report
                                                              contained no recommendations.
Fiscal Year 2006        IS-AR-07-009 February      26, 2007   Overall, general computer controls were in
Information                                                   place and working effectively. However,
Systems General                                               additional controls and actions were needed
Controls                                                      in the areas of access to
Capping Report



                                                                           he report contained no
                                                              recommendations.




                                                   8
Fiscal Year 2009 Information Systems                                     IS-AR-10-005
 General Computer Controls Capping Report


                APPENDIX B: SUMMARY OF REPORTS ISSUED

Physical Access Controls at the Information Technology and Accounting
Service Centers (Report Number IS-AR-09-008, dated July 28, 2009).

This report presented the results of our audit of physical access controls at the
Postal Service’s IT/ASCs                                                The
objective of this audit was to determine whether the Postal Service established
adequate controls to restrict physical access to information resources at the
IT/ASCs. We determined that the Postal Service established adequate controls
to restrict physical access to information resources at the IT/ASCs. However, we
identified an opportunity to improve compliance with Postal Service policies.
Specifically, management could further minimize the risk of unauthorized
modification, loss or disclosure of Postal Service information resources by
conducting a semiannual survey of all building keys at the IT/ASCs and
periodically reviewing the              IT/ASC ID badge access control list.

We provided recommendations to (1) develop a procedure to track and schedule
key inventory surveys at the                         IT/ASCs; (2) conduct a
survey of all building keys at the        IT/ASC; (3) develop a procedure to
track and schedule key inventories at the           IT/ASC; and (4) develop a
procedure to track and schedule quarterly ID badge access reviews at the
       IT/ASC. In addition, when brought to their attention, management initiated
action to correct three security issues.

UNIX Access Controls at the Information Technology and Accounting
Service Centers (Report Number IS-AR-09-010, dated August 10, 2009).

The report presented the results of our audit of logical access controls of UNIX
information resources                                                          .
The objective of this audit was to determine whether management established
adequate logical controls to limit or detect inappropriate access to its UNIX
information resources. We determined that management established adequate
logical access controls to limit or detect inappropriate access to UNIX information
resources. However, we found the Postal Service can further improve logical
access controls




We provided recommendations to




                                            9
Fiscal Year 2009 Information Systems                                                          IS-AR-10-005
 General Computer Controls Capping Report




Management took corrective action to initiate ten access control issues we
identified during the audit. These access control issues did not, alone or
collectively, represent a significant risk to reliance on general computer controls.
Therefore, we did not make a recommendation regarding these specific issues.

Database and Network Access Controls at the Information Technology and
Accounting Service Centers (Report Number IS-AR-10-001, dated
December 14, 2009).

The report presented the results of our audit of database and network access
controls at the                        IT/ASCs and the          ITSC. The
objective of this audit was to determine whether the Postal Service adequately
controls logical access to its database and network information resources to
protect these resources against unauthorized (accidental or intentional)
modification, loss, damage or disclosure. We determined that database and
network logical access controls were generally in place and functioning properly.
However, management can improve
                           Management corrected these issues during the course
of our review, therefore, we did not make a recommendation regarding this issue.
Further, management can improve network access controls by improving the
management and monitoring of



We provided recommendations to (1) develop a process to review and identify
appropriate network devices at the                       IT/ASCs to include in
the network management software; (2) periodically review and update the

         are categorized appropriately; (3)
                                                                           to ensure
compliance with applicable hardening standards and adopt industry practices as
appropriate; (4) develop procedures to ensure standardized and complete
network diagrams are produced; (5) develop a procedure to provide continuous
maintenance and monitoring of
       7
                                     and (6) incorporate a test of controls
                                                                 to validate the
encryption of sensitive information.




7
  A remote authentication protocol used to communicate with an authentication server.          allows a
remote access server to communicate with an authentication server to determine if the user has access to
the network.


                                                    10
Fiscal Year 2009 Information Systems                                                          IS-AR-10-005
 General Computer Controls Capping Report


Mainframe Access Controls at the Information Technology and Accounting
Service Centers (Report Number IS-AR-10-003, dated December 29, 2009).

The report presented the results of our audit of the mainframe access controls at
the                         IT/ASCs. The objective of this audit was to determine
whether the Postal Service established adequate logical controls to limit or detect
inappropriate access to its mainframe operating environment. We determined
that the Postal Service established adequate logical controls to limit or detect
                                           8
inappropriate access to its mainframe
                                                         10

                                           This report did not contain any findings or
recommendations.

Windows Access Controls at the Information Technology and Accounting
Service Centers (Report Number IS-AR-10-006, dated March 24, 2010).

The report presented the results of our audit of Windows access controls at the
                        IT/ASCs and the           ITSC. Our objective was to
determine whether the Postal Service established adequate logical controls to
limit or detect inappropriate access to its Windows operating environment. We
determined that the Postal Service established adequate logical controls to limit
or detect inappropriate access to its Windows operating system
                                                                              .
However,


We provided recommendations to (1) revise security standards for
             to clearly define system administrator responsibilities for
                                        on a regular basis; (2) review the
Windows security standards and update them as appropriate; and (3) perform a
comprehensive review of the                                   to ensure
compliance with applicable Windows security standards.




8
9
 System software is a set of programs designed to operate and control computer processing activities.
Examples of system software include system utilities, program library systems, and file management
software.
10




                                                    11
Fiscal Year 2009 Information Systems                                                                                   IS-AR-10-005
 General Computer Controls Capping Report


                       APPENDIX C: ACTION ON PRIOR YEAR RECOMMENDATIONS

                                        Table 1: Open Recommendations

                   Rec. Number                                                   Responsible Organizations
Report Number                               Description
                   Significant (S)                                11   12   13        14
                                                                                           R   15        16       17

                                     Assess the risk to all
              18                     IT/ASC positions for the
IS-AR-07-017             1(S)                                     X                                  X        X             X
                                     purpose of assigning
                                     them as sensitive.
                                     Require a periodic
                                     reassessment of the risk
                           2         of sensitive positions to    X                                  X        X             X
                                     determine if they should
                                     retain the designation.
                                     Establish a central
                                     location to maintain an
                                     official list of sensitive
                           3                                      X                                  X        X             X
                                     positions by occupation
                                     code, title, and job
                                     description.




     11
     12
     13
     14
     15
     16
     17
     18
        Separation of Duties                                                                                                          , dated
     August 29, 2007.
                                                                       12
Fiscal Year 2009 Information Systems                                                                                  IS-AR-10-005
 General Computer Controls Capping Report


                 Rec. Number                                                    Responsible Organizations
Report Number                             Description
                 Significant (S)                                 11   12   13        14      15         16       17

                                   Notify the Postal
                                   Inspection Service when
                                   management creates a
                                   new IT/ASC position,
                                   hires a new employee, or
        4(S)                       promotes an employee to       X                                  X        X             X
                                   a new position to make
                                   certain management
                                   attributes the proper
                                   clearance level to the
                                   employee.
                                   Amend the Administrative
                                   Support Manual, Issue
                                   13, Chapter 2, Section
                                   272 (Security Clearance),
                                   to:
                                    Designate the chief
                                        postal inspector as
                                        responsible for
                                        defining the criteria
                        5                                                                           X
                                        for identifying
                                        sensitive positions.
                                    Specify the criteria for
                                        designating a position
                                        as sensitive.
                                    Update the list of
                                        position types
                                        requiring a sensitive
                                        clearance.




                                                                      13
Fiscal Year 2009 Information Systems                                                                                                  IS-AR-10-005
 General Computer Controls Capping Report


                  Rec. Number                                                                   Responsible Organizations
Report Number                               Description
                  Significant (S)                                     11          12       13        14      15         16       17

                                     Develop an automated
                                     procedure to identify and
                                     remove user accounts of
IS-AR-08-01519                       terminated and
                         1                                           X        X        X
                                     transferred employees
                                     who no longer need
                                     access from UNIX
                                     groups.
                                     Perform risk
                                     reassessments on the six
IS-AR-09-00220           3                                           X
                                     applications reviewed
                                     during this audit.




     19
       Access Controls
                dated August 15, 2008.
       Security Policies and Procedures (Corporate-Wide) at the Information Technology and Accounting Service Centers for Fiscal Year 2008, dated November 13,
     2008.
                                                                                  14
     Fiscal Year 2009 Information Systems                                                                              IS-AR-10-005
      General Computer Controls Capping Report


                                                      Table 2: Closed Recommendations

                            Recommendation                                         Responsible Organizations
      Report Number
                                Number                                                                        
                                 1(S)
                                 2(S)
       IS-AR-08-00921                                 X              X                                            X
                                 3(S)
                                  4
                                 1(S)
       IS-AR-08-01122             2                   X              X         X
                                  3
                                 1(S)
                                  2
       IS-AR-08-01323                                 X X X X X
                                  3
                                  4
        IS-AR-08-015 2                                X              X         X
                                      1
        IS-AR-09-002                                  X                                                       X
                                      4
                                      1
       IS-AR-09-00324                 3               X                        X
                                      4




21
   Update Processes for Active Directory and CA-ACF2, dated March 14, 2008.
22
   System Software Controls at the                                              Information Technology and Accounting Service Centers for Fiscal Year 2008,
dated June 3, 2008.
23
   Protection of Sensitive Equipment at Selected Postal Service Information Technology Facilities, dated July 9, 2008.
24
   Service Continuity at the Information Technology and Accounting Service Centers for Fiscal Year 2008, dated January 20, 2009.
                                                                               15
Fiscal Year 2009 Information Systems                          IS-AR-10-005
 General Computer Controls Capping Report


                          APPENDIX D: MANAGEMENT’S COMMENTS




                                            16
